NO. _________________

IN THE SUPREME COURT OF THE UNITED STATES

THOMAS D. HOLMES,
Petitioner
vs.
RANDY GIBBS, WARDEN, IOWA STATE PENITENTIARY,
Respondent.

PROOF OF SERVICE

I, Bruce H. Stoltze, do swear or declare that on this date, October 1, 2021, as
required by Supreme Court Rule 29 I have served the enclosed Motion for Leave
to Proceed in Forma Pauperis and Petition for a Writ of Certiorari on each party to
the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:

William Allen Hill
Assistant Attorney General
Iowa Attorney General’s Office
1305 E. Walnut Street
Des Moines, IA 50319
Counsel for Respondent.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 1, 2021.
Respectfully Submitted

/S/ Bruce H. Stoltze
Bruce H. Stoltze
300 Walnut Street
Des Moines, Iowa 50309
Telephone: (515) 244-1473
Email: Bruce.Stoltze@stoltzelaw.com
COUNSEL OF RECORD FOR
PETITIONER THOMAS D. HOLMES

